No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,
PETITIONERS
U.

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL., RESPONDENTS
ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 7,882 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 7, 2021.

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Amicus Curiae

